No.

 

IN THE

Supreme Court of the Anited States

BRADLEY FREEMAN,
Petitioner,

v.

STATE OF NEW MEXICO,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis in the
Supreme Court of New Mexico.

A copy of the order appointing the New Mexico Public Defender Department to
represent Mr. Freeman is attached.

Respectfully submitted,

Charles D. Agoos

Attorney of Record

Assistant Appellate Attorney

Law Offices of the Public Defender
1422 Paseo de Peralta, Bldg. 1
Santa Fe, New Mexico 87501

(505) 395-2890
Charles.Agoos@lopdnm.us

October 19, 2020
FILED

2th JUDICIAL DISTRICT COURT
Otero County
4/9/2019 4:00 PM
STATE OF NEW MEXICO KATINA WATSON
COUNTY OF OTERO CLERK OF THE COURT
TWELFTH JUDICIAL DISTRICT COURT Mary Cota
STATE OF NEW MEXICO,
Plaintiff, A-1-CA-38086
vs. Cause No. D-1215-CR-2017-00217
Division: I Court of Appeals of New Mexico
BRADLEY FREEMAN,

Filed 4/46/2019 1:28 PM
Defendant, “U
ORDER FINDING DEFENDANT INDIGENT, GRANTING FREE PROCESS ne
AND APPOINTING COUNSEL ON APPEAL Mark Reynolds

THIS MATTER CAME BEFORE THE COURT on the 29" day of March, 2019 and the Court
FINDS that Defendant is indigent and has filed her notice of appeal;

Therefore,
IT IS ORDERED thet Defendant be grented free process on appeal; and

IT 1S FUTHER ORDERDED that the Appellate Section of the Law Office of the Public
Defender is hereby appointed Defendant’s counsel on appeal,

 
   

pe OEE
James Waylon Count
District Court Judge, Division I

  

 

 

i
q
